Dubin
Law
Offices
The Honorable Clarence Thomas
c/o Office of the Clerk
United States Supreme Court
1 First Street NE, Room 30
Washington, DC 20543-0002
Re:

55 Merchant Street
Suite 3100, Harbor Court
Honolulu, Hawaii 96813
______________

(808) 537-2300 (808) Dubin Law
Facsimile (808) 523-7733
Toll Free (888) Dubin Law
Writer’s E-Mail: gdubin@dubinlaw.net
www.dubinlaw.net

November 3, 2020
TIME SENSITIVE

Application for Emergency Stay in Case No. 20A79

Dear Justice Thomas:
Pursuant to Supreme Court Rules 22.4 and 23, I have requested that my
above-referenced Application for Emergency Stay be submitted to Your Honor,
following Justice Kagan’s denial yesterday.
While I fully appreciate that repeat stay submissions are not favored, so too are
egregious state court violations of federal due process of law similarly not favored by
this Court.
My life is now in your hands. I have literally, as the age of 82, been sentenced
to a death penalty, disbarment, with the termination of my livelihood following a 57year highly distinguished career in law and with an otherwise unblemished ethical
record.
Anyone reading my Application could come to no other conclusion. If you do
not have time personally to read my entire Application, I urge you to read the
Declaration of former Governor John Waihee submitted with my Application who was
an eye-witness to all of the due process violations that occurred.
I am the only member of my family to go to college. My Father was born on a
refugee boat headed to Ellis Island from Europe in 1901. My family was on welfare the
first 13 years of my life. I worked hard in school, finishing first in my class in high school,
in college, and in my section in law school. I had scholarships my entire academic
career, including scholarship offers from every major law school in the United States
to which I applied. I sat for and passed the Hawaii Bar Examination, earning my right
to practice law in the Courts of the State of Hawaii, without the arbitrary and capacious
loss of my livelihood, to continue to practice law and by reciprocity in all other
jurisdictions as well, including as a Member of this Court's Bar since 1974.

DUBIN LAW OFFICES
The Honorable Clarence Thomas, November 3, 2020

I believe in and I have defended the Constitution of the United States
throughout my life. This Court has jurisdiction to grant the relief requested, unless the
Due Process Clause of the Fifth and Fourteenth Amendments is to be read and
amended, with the following words in brackets added, to say that "nor shall any person
[except attorneys in disciplinary proceedings] be deprived of life, liberty, or property,
without due process of law.”
I have an overwhelmingly meritorious case. Unfortunately, as a result of the
present Rooker-Feldman federal case law, one in my situation has no other remedy
than to apply to your Court for a stay, and now at a time that your Court is extremely
busy with election related and other matters.
case.

That absence of federal district court access is another issue presented in my

Thank you for whatever attention Your Honor and your staff can give to my
Application, which for me a stay as a practical matter literally means life or death.
Very truly yours,
/s/ Gary Victor Dubin
GVD/o

Gary Victor Dubin

2

